                                                     NAnONAL SCIENCE FOUNDAnON
                                                      OFFICE OF INSPECTOR GENERAL
                                                       . OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

                                                                                                      ,
  Case Number: A07120066                                                                         Page 1 of 1



                 NSF OIG received ~ allegation that a PI l submitted an NSF proposa12 containing
           plagiarism. Initial analysis of this proposal and two other proposals 3 identified potential
           plagiarism. The PI's response to our inquiry letter did not dispel the allegation.

                  Because the evidence warranted an investigation and because the PI was no longer
           affiliated with the institution that submitted the proposals, we conducted our own investigation
           rather than refer the matter.

                   We concluded, based on a preponderance of the evidence, that the PI knowingly
           plagiarized, which we deemed a significant departure from accepted prac~ices.

                   We recommended that NSF: 1) make a finding of research misconduct against the PI; 2)
          send the PI a letter of reprimand; 3) require certifications from the PI for a period of 1 year; 4)
          require assurances from a responsible official of the PI's employer for a period of 1 year; 5) bar
          the PI from serving NSF as a reviewer, advisor, or consultant for 1 year; and .6) require
          certification of attending an ethics class within 1 year. The Deputy Director accepted our
          recommendations.                              .                 .

                  This memo, the attached Report ofInvestigation, and the Deputy Director's letter
          constitute the case closeout. Accordingly, this case is closed.




                                                                                                                I
NSF OIG Form 2 (I 1102)
                                                                                                                                                      . ·1




                                          \

CONFIDENTIAL                                                                                                                 CONFIDENTIAL




       National Science Foundation                                                                                                                            I
         Office of Inspector General                                                                                                                      I
                                                                                                                                                          I
                                                                                                                                                          I
                                                                                                                                                          I




                                                                                                                                                          I
                                                                                                                                                          I
                                                                                                                                                          I
                                                                                                                                                          I
                                                                                                                                                          I
                                                                                                                                                          !
                                                                                                                                                          I
                                                                                                                                                          I
                             Confidential                                                                                                                 1

                        Report of Investigation                                                                                                           I
                       Case Number A07120066                                                                                                          I
                                                                                                                                                      l
                                              March 3, 2009                                                                                           j



         """ . . . .    .   ...   . •..       " : ' , . . . . . , ..•.   .,"   : i,',:   W' "'"   ..    ,,':":'   "   j',   '",   ',"   '.   '.   ,


  This !=on,qdelltial ReportoHiivestigatiOrt is the pI()perty,?f the NSF,OIG,and maybedisclosecl.0utside .

                                                                                                                                                      I
   , ,NSF onlYby OIGioodd.i:he flreedom:of,Inf?m:ation,a.ndPrivIiCY<,Aats;5 U.S,C§§ 552,.552a·';0:                                                    I

       . "                           \ " ' , ' ',.'                                         ,     '    .' "   .       N~F DIG Form 22b (11/06)
                                                               "




                                                                                                                                                      I
                                                                                                                                                  '. I            r
CONFIDENTIAL                                                                       CONFIDENTW~



                                    Executive Summary

Allegation:       Plagiarism.'
                                                                                                         \

OIG Inquiry:      OIG identified 6 source documents from which approximately 90 unique lines
                  and 5 embedded references were allegedly copied into 3 NSF proposals.
OIG                                                                                                  I
Investigation:    OIG determined that the Subject copied 82 unique lines and 5 embedded
                  references from 3 source documents into 3 NSF proposals.                           I
OIG Assessment:          OIG determined:                                                             I
                         • The Act: The Subject committed plagiarism in 3 unfunded                   I
                            proposals.                                 .
                         • Intent: The Subject acted knowingly.
                         • Standard of Proof: A preponderance of evidence supports the
                            conclusion that the Subject committed plagiarism.
                         • Significant Departure: The Subject's plagiarism represents a
                           Isignificant departure from accepted practices.
                         • Pattern: Three NSF proposals contained plagiarism submitted
                            over 2 years.
OIG Recommends:
                         •   Make a finding .of research misconduct against the Subject.
                         •   Send the Subject a letter of reprimand.
                         •   Require certifications from the Subject for a period of 1 year.
                         •   Require assurances from the Subject for a period of 1 year.
                         •   Bar the Subject from serving NSF as a reviewer, advisor, or
                             consultant for 1 year.
                         •   Require certification of attending an ethics class within 1 year.




                                                                                                 I
                                                                                                 I
                                                                                                 I
                                                                                                 !
                                                1
                                                                                                 I
                                                                                                 I
                                                                                                 I
    CONFIDENTIAL                                                                                         CONFIDENTIAL


                                                      OIG's Inquiry

           The National Stience Foundation (NSF) Office ofInspector General (OIG) conducted an
                                                                                      2
    inquiry into an al1egation that the Subject) submitted an NSF proposal (Proposal 3 ) containing
    plagia~ism. We found approximately 22 unique lines allegedly plagiarized from 3 source
    documents? Proposal 3 did not contain a References Cited section.                                                           i
                                                                                                                                I
            We reviewed other proposals by the Subject and identified allegedly plagiarized text in 2
    other proposals. Analysis of Proposal 14 found approximately 45 unique and continuous lines                                 I
    and 5 embedded references al1eg'edly plagiarized from one source. 5 We noted that the embedded
    references were not included in the proposal's "References Cited section, suggesting they were
                                                                                                                                j
                                                                               6
    copied directly from the alleged source document. Analysis of Proposal 2 identified 25 unique
    lines of allegedly plagiarized text from two sources.
                                                          7
                                                                                                                                I
          We contacted the Subject about the allegation. s The Subject responded that he routinely
  checked his proposals using plagiarism detection software, but his University cancelled its
·subscription to the service before he submitted these proposals. 9 He noted that the annotated text
  was background information for the proposals, none of which was awarded. He said the text
  copied from Source A into Proposal 1 was part of a dissertation draft by his graduate student
  (Student) for whom the grant would provide funding. lO After submitting Proposal!, the Subject
· realized that text was plagiarized and ensured the Student corrected the error before finalizing his
  dissertation.] I The Subject said he was part of the advisory team for the project discussed in
  Source B, and provided two other sources containing identical or nearly identical text. 12
  Similarly, he provided four websites demonstrating the prevalence of Source C's folktale, as well
  as a web source he uses to understand the relationship between folklore and copyri¥.htP He
  attributed the copied text from Sources D and E to another researcher (Researcher) 4 and




                                                                                                                            Ii
    8Tab 5 contains the inquiry letter and two additional cover letters we sent to the Subject as we strived to ascertain
    his current address.
    9

                                            text was subsequently removed from the final draft of his dissertation.
    II As                       report, we contacted the Student during the investigation. The Student did not
    corroborate the Subject's statements.
    12 Tab 6, pg 4.
                                                                                                                            I
·
    IJ



                                                                                                                            I
                                                               2                                                            I
                                                                                                                            !
                                                                                                                            I
CONFIDENTIAL                                                                                CONFIDENTIAL



provided a copy of the original file the Researcher authored. Lastly, the Subject
"acknowledge[d] the oversight in this case," but believed a university grant official (Grant
Official)15 might have uploaded an earlier version of the proposal since the final version
                                                      16
contained a different introduction for section B.2.6.     .


        We determined that the Subject's response did not adequately explain the matter. First,
the Subject did not provide evidence regarding the roles of those named as involved parties.
Second, he did not provide documentary evidence of non-finalized drafts. However, most
crucially, he acknowledged having copied text from Sources C and F.

       The following table illustrates the material allegedly plagiarized:


         Source   Proposal]                  Proposal 2   Propos, I 3       Total

                  43 lines + 5 emb.edded                                     43 lines + 5 embedded
         A        references                                                 references
         B                                   4.lines                         4 lines
         C                                   21 lines                        21 lines
         D                                                4 lines            4 lines
         E                                                4 lines            4 Jines
         F                                                14 lines          ,14 lines
                  43 lin~s + 5 embedded                                 ~ lines + 5 embedded
         Total    references                 25lines      22 lines      .     ferences

As illustrated, we identified a total of 6 source documents from which approximately 90 unique
lines and 5 embedded references were allegedly copied into Proposals 1-3. For the
aforementioned reasons, we detern;tined that there was sufficient evidence to proceed with an
investigation.

                                           OIG's Investigation

       Given that the Subject was no longer affiliated with the institution that submitted the
proposals, we conducted our own investigation rather than refer the matter. We informed the
Subject that we were initiating an investigation and asked him to respond to additional
questionsP Specifically, we asked for contact information for the individuals named in his
response as well as documentary evidence supporting .his response .

       .In his response to our investigation, 18 the Subject provided the last known contact
information for his Student and for the Grant Official. He explained that he kept none of his
Student's dissertation drafts, his own proposal drafts, or emails between involved parties.
Although he did provide documentation of his involvement with the advisory group that
produced Source B, he did not provide documentary evidence of permission to use that material
 CONFIDENTIAL                                                                                         CONFIDENTIAL


. without citation. He also stated, "Question marks [sic] have not been included due to my
  negligence and misunderstanding of rules on using folklore material. I now understand it has
  been a mistake.,,19 I
                          !


         Our office contacted the Grant Official and asked her to respond to questions regarding
 whether she uploaded the files, and whether the university maintained copies of materials it                              \
 received to submit. 20 She responded that her office does submit proposals on behalf of University
 staff, but "if an office staff member does upload a project summary or project description for a
 faculty member, iris exactly the same document that faculty member provides to our office.,,21
 She added that they "do not, as a rule, maintain electronic copies of materials provided by faculty
 members" although they maintain a hard copy of the FastLane copy proposal. We therefore
 received no documentary evidence supporting the Subject's claim of submission of an incorrect
 draft .

         .'We also contacted the Researcher, whom the Subject listed as project personnet, to ask.
 whether he helped the Subject prepare Proposal 3, and more specifically, whether he authored
 section B.2.5. He confirmed that he authored that section, but noted that the Subject "did
 edit/alter the text slightly by including some of the references into the text and removing
 others.,,22 He said he had not seen the completed proposal and was unaware of the editing until
 receiving our correspondence. However, our review of the Researcher's original texf3 indicated
 that the Subject had not altered the text OIG annotated. We concluded that the Subject did not
 author that text, but included text received from the Researcher containing inadequate citation.

        Lastly, we contacted the Student and asked whether he helped prepare Proposal 1 and, if
 so, whether he authored the section containing Source A. The Student said that although "I
 wrote most of the project description" and that "[t]his project is based completely on my doctoral
 research, which was my own idea," he did not author the section containing the questioned text
 and instead believed the Subject authored that section. 24   \                        .


        Our investigation therefore determined that ofthe original 90 lines and 5 embedded
 references, 8 lines--4 lines from Source D and 4 lines from Source E that the Researcher
 contributed-are not the responsibility ofthe Subject. 25 The remaining allegedly plagiarized
 material is illustrated below:




 19 Tab 8, pg 1.
 20 Tab 9.
 21 Tab 9, pg 2 of response.
 22 Tab 10, pg 4.
 23 Tab 10, pg 6.
 24 Tab 11.
 25 Nonetheless, we note that the Subject is ultimately responsible for all of the text contained in any proposal he/she
 submits.                     .


                                                            4
CONFIDENTIAL                                                                                             CONFIDENTIAL




                                                                                                                           r
          'Source     Proposall                     Proposal 2       Proposal 3        Total

                                                                                       43 lines + 5 embedded
           A                                                                           references
           B                                           ines                            4 lines
           c                                            lines                          21 lines
                                                                     14 lines          14 lines
                     43 lines + 5 embedded                                             82 lines + 5 embedded
           Total     references                     25 lines         14 lines          references



       Our review of the Subject's background determined that the Subject is a non-native
English speaker. His CY26 indicates that he received all of his de~rees in his native country.27
Since 1998, though, the Subject has worked in the United States,2 and between 1998 and 2002
he completed doctoral level course and research work at a U.S. institution. 29

         The CY also indicated that the Subject is a prolific writer and presenter?O Though the
CY indicates that the Subject used his native language3 J for some writings and presentations, he
more often used English. Additionally, the Subject serves a~ a reviewer for multiple journals,
conferences, books, and textbooks,32 and is even a featured reviewer for a significant publication
in his field. 33

        To determine the standards of the Subject's larger research community, we examined
policies from a professional society identified in the Subject'
  galllZ,itIcm for which he serves as a
                            ludes as one of




                         written and/or presented: 10 books/edited books; 2 conference volumes; 9 book chapters; 21
refereed journal articles; 66 peer-reviewed conference papers; 67 reviews; 7 refereed conference posters; 3 other
          <t\;~I;:JJ~t;U papers; 2invited tutorials; 2 invited talks; 4 panels; 9 presentations; and 7 popular articles.




                                                                5
                                                                                                                   r
                                                                                                                   I


CONFIDENTIAL                                                                                     CONFIDENTIAL
                                                                                                                   t
The society released a plagiarism policy in 2006, which states:




                 •
                 •
                 •
 This professional society thus has clearly stated standards regarding plagiarism.

        Lastly, in addition to the 3 NSF proposals examined,37 we examined a limited number of
 other publications the PI authored or co-authored to determine whether the plagiarism in the
 proposals constituted part of a larger pattern. Examination of these documents did not identify
 inadequately cited text.

                                                   Assessment

        A finding of research misconduct by NSF requires that (1) there be a significant departure
 from accepted practices of the relevant research community, that (2) the research misconduct be
 committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
 preponderance of the evidence. 38                  . '


                                                 The Act
         , The Subject copied approximately 82 unique lines and 5 embedded references from 2
  journal articles and 2 web sites within 3 declined NSF proposals. In so doing, he presented
  others' words as his own, thereby providing reviewers with a misrepresentative view by which to
. judge the proposals. We find that the Subject significantly departed from the accepted standards
  of his research community in failing to differentiate between text that he and others authored,
  and therefore has c()mmitted plagiarism.




     mee            to su                 2003,     Subject submitted 15 NSF proposals as either PI or co-PI. Of
 these 15 proposals, the Subject was a eo-PIon 5, a PIon 10 that included co~PIs, and sole PIon only 1 proposal.
 38
    45 C.F.R. § 689.2(c).


                                                         6
CONFIDENTIAL                                                                          CONFIDENTIAL



                                              Intent
        We find that the Subject acted knowingly. The Subject either selected-copied-and-pasted
or manually retyped text and citations from other sources into his proposals, which is
intrinsically knowing conduct.

                                       Standard ofProof
       We find the Subject's actions and intent proven based on a preponderance ofthe
evidence.

        We conclude, based on a preponderance of the evidence, that the Subject knowingly
plagiarized, thereby committing an act of research misconduct.

                                    Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

                (I) How serious the misconduct was; (2) The degree to which the
                misconduct was knowing, intentional, or reckless; (3) Whether it was an
                isolated event or part ofa pattern; (4) Whether it had a significant impact
                on the research record, research subjects, other researchers, institutions or
                the public welfare; and (5) Other relevant circumstances. [39]

                                           Seriousness
       The Subject's actions are a violation of the standards of scholarship and ofthe
fundamental tenets of research ethics as well as NSF policy and regulations. The extent of the
plagiarism-82 unique lines and 5 embedded references within two declined NSF proposals
from 3 source documents-is significant.                        '

                                Degree to which Action was Knowing
       We determined that the Subject acted knowingly. First, although the Subject earned his
degrees outside the U.S., he had ample experiences and employment in the U.S. to learn that
copying text -yvithout attribution is wrong.

       Second, the Subject is not neW to grant writing; he has submitted a total of 15 NSF
proposals as PI or as co-PI. The Grant Proposal Guide clearly articulates NSF's expectations:

                NSF expects strict adherence to the rules of proper scholarship and
                attribution. The responsibility for proper attribution and citation rests with
                authors of a proposal; all parts of the proposal should be prepared with
                equal care for this concern. Authors other than the PI (or any co-PI)
                should be named and acknowledged. Serious failure to adhere to such
                standards can result in findings of research misconductJ40]

                                                                                                     \
39
   45 C.F.R. § 689.3(b).
40 NSF 04-23, GPG Section LD.3.




                                                  7
CONFIDENTIAL                                                                                        CONFIDENTW~



        A professional society with which the Subject is associated has policies in place that
condemn plagiarism. In light of all of his varied experiences, we conclude the Subject must
have known that using verbatim text from another proposal is simply hot acceptable. OIG
therefore concludes the Subject acted highly knowingly.

                                             Pattern
        We conclude that although the plagiarism was identified in the 3 NSF proposals, we do
not find evidence to support an extensive pattern of plagiarism outside of submissions to NSF.

                                                   Recommendation

Based on the evidence, OIG recommends that NSF:

       •    send a letter of reprimand to the Subject informing him that NSF has made a finding of
            research misconduct;41

       •    require the Subject to certify to OIG's Associate Inspector General for Investigations
            (AlGI) that proposals or reports he submits to NSF do not contain plagiarized material for
            1 year; 42                                             .

       •    require that the Subject submit assurances by a responsible official of his employer to the
            AlGI that any proposals or reports submitted by the subject to NSF do not contain
            plagiarized material for 1 year; 43

       •    bar the Subject from serving NSF as a reviewer, advisor, or consultant for 1 year
            commencing on the date of NSF's finding of research misconduct;44 and

       •    require the Subject to complete an ethics course within 1 year and provide certification of
            its completion to OIG upon completion.

                                                                   \




41    A letter of reprimand is a Group I action (45 C.F.R. § 689.3(a)(I)(i)) .
.42   Certification by an individual is authorized in 45 C.F.R. § 689.3(a).
43    Requirement for assurances is a Group I action (45 C.F.R. § 689.3(a)(I)(iii)).
44    Prohibition from serving as a reviewer is a Group III action (45 C.F.R. § 689.3(a)(3)(ii)).


                                                             8



                    (
                                    NATIONAL SCIENCE FOUNDATION
                                         4201 WILSON BOULEVARD
                                        ARLINGTON. VIRGINIA 22230




                                            JUL 0 7 2009
       OFFICE OF THE
      DEPUTY DIRECTOR




   CERTIFIED MAIL --RETURN RECEIPT REQUESTED




          Re:     Notice of Research Misconduct Determination

   DearDr._
                                    .....,.'-nn''''. to the National Science Foundation ("NSF') entitled,
                                                          In             submitted two              to.


    documented in the attached Investigative Report prepared by NSF's Office ofInspector General
  . ("010"), these proposals contained plagiarized text.

   Research Misconduct and Proposed Sanctions
          Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
  plagiarism in proposing or performing research funded by NSF ... " 45 CFR §689.1(a). NSF
  defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
- without giving appropriate credit." 45 CFR § 689.1 (a)(3). A finding of research misconduct
  requires that:

          (1) There be a significant departUre from aCCepted practices of the relevant research
              community; and
          (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
          (3) The allegation be proven by a preponderance of evidence.

   45 CFR § 689.2(c).

          Your proposals contained verbatim and paragraphed text, as well as several embedded
  references, from three source documents. By submitting proposals to NSF that copy the ideas or
  words of another without adequate attnbution, as descnbed in the OIG Investigative Report, you
  misrepresented someone else's work as your own. Your conduct unquestionably constitutes
  plagiarism. I therefore conclude that your actions meet the definition of "research misconduct"
  set forth in NSF's regulations.                                               .
                                                                                                  Page 2
         Pursuant to NSF regulations, the Foundation must also determine whether to make a
 finding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). After
 reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
 evidence, your plagiarism was committed knowingly and constituted a significant departure from
 accepted practices of the relevant research community. I am, therefore, issuing a finding of
 research misconduct against you.

          NSF's regulations establish three categories of actions (Group I, II, and III) that can be
 taken in response to a finding ofmisconduct. 45 CFR § 689.3(a). Group I actions include issuing
 a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
 requiring that an institution or individual obtain special prior appro val 0 f particular activities from
 NSF; and requiring that an institutional representative certifY as to the accuracy of reports or
 certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1). Group II
 actions include awardsuspensio"n or restrictions on designated activities or expenditures; requiring
 special reviews of requests for funding; and requiring correction to the research record. 45 CFR §
 689.3(a)(2). Group III actions include suspension or termination of awards; prohtbitions on
 participation as NSF reviewers, advisors or consultants; and debarment or suspension from
 participation in NSF programs. 45 CFR § 689.3(a)(3).

           In determining the severity of the sanction to impose for research misconduct, I have
   considered the seriousness of the misconduct, our determination that it was committed knowingly,
   as well as our determination that it was an isolated incident. I have also considered the fact that
   your misconduct had no impact on the research record, as well as other relevant circumstances.
,. 45 CFR § 689.3 (b).

         After assessing the relevant facts and circumstances of this case, I am taking the following
 actions against you:                     '

        , (1)   Until June 30, 2010, you must provide certifications to the DIG that any proposal
                you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
                fabricated material;    ,

       , (2)    Until June 30, 2010, you must submit assurances from a responsible official of
                your employer to the DIG that your submissions to NSF do not contain
                plagiarized, falsified, or fabricated material;

         (3)    You must certifY to the bIG that you have completed a research ethics training
                course on plagiarism by JUne 30,2010; and

         (4)    Until June 30,2010, you are prohtbited from serving as an NSF reviewer, advisor,
                or consultant.

        All certifications and assurances should be submitted in writing to OIG, Associate
 Inspector General fOr Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.
                                                                                             Page 3
Procedures Governing Aweals
         Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director ofthe Foundation. 45 CFR § 689.1 O(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. Ifwe do not receive your appeal within the 30-day period, this
decision will become final.
                                                                        '-i
       For your information, we are attaching a copy of the applicable regulations. Ifyou have
any questions about the foregoing, please call            , Assistant General Cowise~ at (703)
292-8060.


                                                     Sincerely,




                                                     Cora B. Marrett
                                                     Acting Deputy Director




Enclosures
- Investigative Report
- 45 C.F.R. Part 689
